20“5228

iw;

No
FILED
UNITED STATES SUPREME COURT
On Petition for Writ of Certiorari to the United States Court of Appeals for the Firs' Cirfitrit^ ] | 2Q20
OFFICE OF THE CLEFtK
United States ex rel Friedrich Lu, Petitioner
QUpPEME COURT n r
v
Ramandeep Samra, Trustees of Boston University, Trustees of Tufts College, Marielena
Gamboa-Ruiz and United States, Respondents

MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS
Petitioner Friedrich Lu moves to petition for a writ of certiorari without prepayment of
costs and to proceed in forma pauperis.
Under penalty of perjury, he states the following: “For the past year, I have been
homeless. I have not worked, not applied for IFP status in any other court, has no income,
Petitioner’s affidavit or declaration in support of this motion is attached hereto.

Petitioner:
“o
Date:
Email address: chi2flu@gmail.com
Address:
% St Francis House, PO Box 499, Lafayette Station, Boston, MA 02112
Proof of service: Under penalty of perjury, Lu certifies that he served all documents to be filed,
electronically on the same day — he can not hand-delivers them in paper form due to closure of
their offices with Covid 19 pandemic — on
attorney Lisa A Tenerowicz, representing Ramandeep Samra and Trustees of Boston
(1)
University;
attorney John G Wheatley, representing Trustees of Tufts College and Marielena
(2)
Gamboa-Ruiz;
Also Lu serves same day electronically on Assistant US Attorney Steven T Sharoben, as
well as a hard copy, under S Ct Rule 29.4(b), to Solicitor General, Room 5616, Department of
Justice, 950 Pennsylvania Avenue, NW, Washington, DC 20530-0001.

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
I, Friedrich Lu, am the petitioner in the above-entitled case. In support of my motion to
proceed in forma pauperis, I state that because of my poverty I am unable to pay the costs of this
case; and I believe I am entitled to relief.
I have never been married and have no dependents or children. The amount of money
received by me from each of the following sources during the past 12 months are all zero:
employment, self-employment, income from real property (such as rental income), interest and
dividends, gifts, alimony, child support, retirement (such as social security, pensions, annuities,
insurance), disability (such as social security, insurance payments), unemployment payments,
public assistance (such as welfare), and others.
I have not been employed for the past two years.
I do not have cash, an account in a bank or any other financial institution.
I own no assets (such as home, other real estate, motor vehicle).
No person, business, or organizations owed mr anything.
No persons rely on me for support.
My estimation of average monthly expenses of myself is almost zero, eating and sleeping
in a homeless shelter — specifically expenses for rent or home-mortgage payment; utilities; home
maintenance; food; clothing; laundry and dry-cleaning; medical and dental expenses; recreation,
entertainment, newspapers, magazines; insurance (homeowner’s or renter’s; life; health; motor
vehicle; or other); taxes; installment payments (for motor vehicles, credit card, department store
or other); alimony, maintenance, and support paid to others; regular expenses for operation of
business, profession or farm. Use of mass transportation ($90 a month) is financed by debts.
I do not expect any major changes to my monthly income, expenses or in my assets or
liabilities during the next 12 months.
I have not paid — or will be paying — an attorney (or anyone other than an attorney) any
money for service in connection with this case, including the completion of this form.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 5, 2020

Signed:

